U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

October 5, 2020

Christopher M. Gibson v. SEC, et al.,
S.Ct No. 20-276

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 31,
2020, and placed on the docket on September 3, 2020. The government’s response is due on
October 5, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 4, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0276
GIBSON, CHRISTOPHER M.
SEC, ET AL.

LAWRENCE S. EBNER
CAPITAL APPELLATE ADVOCACY PLLC
1701 PENNSYLVANIA AVE, NW
SUITE 200
WASHINGTON, DC 20006
202-729-6337
LAWRENCE.EBNER@CAPITALAPPELLATE.C
OM
GREGORY GEORGE GARRE
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
GREGORY.GARRE@LW.COM

